TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2011 Statutory Audit of
                        Compliance With Legal Guidelines
                         Prohibiting the Use of Illegal Tax
                        Protester and Similar Designations



                                           April 29, 2011

                              Reference Number: 2011-30-040




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

  Redaction Legend:

  1 = Tax Return/Return Information




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


FISCAL YEAR 2011 STATUTORY AUDIT                      compliant with the tax laws. The label could
OF COMPLIANCE WITH LEGAL                              bias IRS employees and result in unfair
GUIDELINES PROHIBITING THE USE OF                     treatment. The purpose of our audit was to
ILLEGAL TAX PROTESTER AND                             determine whether the IRS complied with
                                                      RRA 98 Section 3707 and internal guidelines
SIMILAR DESIGNATIONS
                                                      that prohibit officers and employees from
                                                      referring to taxpayers as Illegal Tax Protesters
Highlights                                            and similar designations.
                                                      WHAT TIGTA FOUND
Final Report issued on April 29, 2011
                                                      The IRS has not reintroduced past Illegal Tax
Highlights of Reference Number: 2011-30-040           Protester codes or similar designations on
to the Internal Revenue Service Deputy                taxpayer accounts. In addition, the Internal
Commissioner for Services and Enforcement             Revenue Manual no longer contains any Illegal
and Deputy Commissioner for Operations                Tax Protester references. However, TIGTA
Support.                                              found that out of approximately 3.6 million
                                                      records and cases, there were 38 instances in
IMPACT ON TAXPAYERS                                   which 34 employees had referred to taxpayers
                                                      as “Tax Protester,” “Constitutionally
Congress enacted Internal Revenue Service             Challenged,” or other similar designations in
(IRS) Restructuring and Reform Act of 1998            case narratives on the computer systems
(RRA 98) Section 3707 to prohibit the IRS from        analyzed.
labeling taxpayers as Illegal Tax Protesters or
any similar designations. However, IRS                WHAT TIGTA RECOMMENDED
employees continue to refer to taxpayers by
these designations in case narratives. Using          TIGTA made no new recommendations in this
Illegal Tax Protester or other similar                report because the IRS has long disagreed with
designations may stigmatize taxpayers and may         our determination that in order to comply with
cause employee bias in future contacts with           RRA 98 Section 3707, IRS employees should
these taxpayers.                                      not designate taxpayers as Illegal Tax
                                                      Protesters or similar designations in case
WHY TIGTA DID THE AUDIT                               histories. Moreover, TIGTA has previously
                                                      elevated this disagreement to the Assistant
This audit was initiated because TIGTA is             Secretary for Management and Chief Financial
required to annually evaluate compliance with         Officer of the Department of the Treasury, but it
the prohibition against using Illegal Tax             has yet to be resolved.
Protester or similar designations. Prior to
enactment of the RRA 98, the IRS used the             Although TIGTA made no recommendations in
Illegal Tax Protester Program to identify             this report, IRS officials were provided an
individuals and businesses using methods that         opportunity to review the draft report. IRS
were not legally valid to protest the tax laws.       management did not provide any report
IRS employees referred taxpayers to the Illegal       comments.
Tax Protester Program when their returns or
correspondence contained specific indicators of
noncompliance with the tax law, such as the use
of arguments that had been repeatedly rejected
by the courts.
Congress enacted the prohibition against Illegal
Tax Protester designations because it was
concerned that some taxpayers were being
permanently labeled as Illegal Tax Protesters
even though they had subsequently become
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  April 29, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT
                DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2011 Statutory Audit of Compliance
                               With Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                               Similar Designations (Audit # 201030044)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with the IRS Restructuring and Reform Act of 19981 Section 3707 and its own
 internal guidelines that prohibit IRS officers and employees from referring to taxpayers as Illegal
 Tax Protesters or any similar designations. The Treasury Inspector General for Tax
 Administration is required under Internal Revenue Code Section 7803(d)(1)(A)(v) to annually
 evaluate the IRS’s compliance with the provisions of the IRS Restructuring and Reform Act of
 1998 Section 3707.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review the draft report. IRS management did not provide us with any report
 comments.
 Copies of this report are also being sent to the IRS managers affected by the report. Please
 contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant Inspector
 General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                   Fiscal Year 2011 Statutory Audit of Compliance
                                      With Legal Guidelines Prohibiting the Use of
                                    Illegal Tax Protester and Similar Designations




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Illegal Tax Protester Codes Were Not Used on the Master File ................... Page 3
          Illegal Tax Protester References Have Been Removed From the Internal
          Revenue Manual ........................................................................................... Page 4
          In Some Instances, Employees Used Illegal Tax Protester or Similar
          Designations in Case Narratives ................................................................... Page 4
          Alternative Methods That Avoid the Need for Illegal Tax Protester
          Designations Have Been Established to Address Tax Compliance Issues ... Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Outcome Measure ................................................................ Page 12
          Appendix V – Glossary of Terms ................................................................. Page 13
         Fiscal Year 2011 Statutory Audit of Compliance
            With Legal Guidelines Prohibiting the Use of
          Illegal Tax Protester and Similar Designations




                 Abbreviations

IRM        Internal Revenue Manual
IRS        Internal Revenue Service
RRA 98     Restructuring and Reform Act of 1998
TIGTA      Treasury Inspector General for Tax Administration
                               Fiscal Year 2011 Statutory Audit of Compliance
                                  With Legal Guidelines Prohibiting the Use of
                                Illegal Tax Protester and Similar Designations




                                             Background

Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98)1
Section (§) 3707 prohibits the IRS from using Illegal Tax Protester or any similar designations.
In addition, the law requires the removal of all existing Illegal Tax Protester codes from the
Master File2 and instructs IRS employees to disregard any such designation not located on the
Individual Master File.
Prior to enactment of the RRA 98, the IRS used the Illegal Tax Protester Program to identify
individuals and businesses that were using methods that were not legally valid to protest the tax
laws. Employees identified taxpayers for referral to the Program when their tax returns or
correspondence contained specific indicators of noncompliance with the tax law, such as the use
of arguments that had been repeatedly rejected by the courts. There were tax protester
coordinators who were responsible for determining whether a taxpayer should be included in the
Illegal Tax Protester Program. If a taxpayer was classified as an Illegal Tax Protester, the
taxpayer’s record was coded as such on the Master File. Once a taxpayer’s account was coded,
certain tax enforcement actions were accelerated. The designation was also intended to alert
employees to be cautious so they would not be drawn into confrontations with taxpayers.
Congress was concerned that some taxpayers were being permanently labeled and stigmatized by
the Illegal Tax Protester designation. The concern was that this label could bias IRS employees
and result in unfair treatment of the taxpayer.
Internal Revenue Code § 7803(d)(1)(A)(v)
requires the Treasury Inspector General for Tax
                                                                            The TIGTA is required to
Administration (TIGTA) to annually evaluate IRS                               annually evaluate IRS
compliance with the prohibition against using the                              compliance with the
Illegal Tax Protester or any similar designations. This                     prohibition against using
is our thirteenth review since Fiscal Year 1999. These                    Illegal Tax Protester or any
reviews have identified areas for improvement to help                         similar designations.
the IRS comply with the Illegal Tax Protester
designation prohibition.
This review was performed in the Office of the National Taxpayer Advocate and Office of
Appeals in Washington, D.C.; the Small Business/Self-Employed Division’s Campus
Compliance Services and Collection functions in Lanham, Maryland; and the Wage and


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix V for a glossary of terms.
                                                                                                              Page 1
                          Fiscal Year 2011 Statutory Audit of Compliance
                             With Legal Guidelines Prohibiting the Use of
                           Illegal Tax Protester and Similar Designations



Investment Division’s Compliance function in Atlanta, Georgia, during the period July 2010
through January 2011. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 2
                          Fiscal Year 2011 Statutory Audit of Compliance
                             With Legal Guidelines Prohibiting the Use of
                           Illegal Tax Protester and Similar Designations




                                Results of Review

The TIGTA made no new recommendations in this report because the IRS has long disagreed
with our determination that in order to comply with RRA 98 § 3707, IRS employees should not
designate taxpayers as Illegal Tax Protesters or similar designations in case histories. Moreover,
the TIGTA has previously elevated this disagreement to the Assistant Secretary for Management
and Chief Financial Officer of the Department of the Treasury, but it has yet to be resolved.
Based on the steady decline in the use of Illegal Tax Protester or similar designations by IRS
employees in recent years, and in the interest of conserving resources, we revised our
methodology for evaluating the use of these designations on the multiple computer systems used
by IRS employees. We will continue to review the Individual Master File and related systems
annually and will review other IRS systems on a periodic basis. The scope of our review for this
year is shown in Appendix I.

Illegal Tax Protester Codes Were Not Used on the Master File
Prior to enactment of the RRA 98, the IRS used Illegal Tax Protester indicators on the
Master File to accelerate collection activity for taxpayers who were delinquent in filing tax
returns or paying their taxes. These indicators were also intended to alert employees that they
might encounter problems when dealing with nonfilers and delinquent taxpayers.
Congress was concerned about the use of the Illegal Tax Protester designation because:
   •   Taxpayers were labeled as Illegal Tax Protesters without regard to their filing obligations
       or compliance.
   •   Illegal Tax Protester indicators were not always reversed when taxpayers became
       compliant with their tax obligations.
RRA 98 § 3707 required the IRS to remove the existing Illegal Tax Protester designations from
taxpayers’ accounts on the Master File beginning January 1, 1999.
In prior reviews, we reported the IRS had removed these designation codes from the Master File
as required by the law. Based on our analysis of approximately 1.2 million taxpayer records that
had been coded for accelerated collection activity, the IRS has not reintroduced Illegal Tax
Protester codes on the Master File. The law also prohibits using any designation similar to
Illegal Tax Protester. We matched approximately 57,000 taxpayer accounts formerly coded as
Illegal Tax Protesters to the Master File and confirmed that the IRS had not input any other type
of similar designation on these accounts.


                                                                                           Page 3
                          Fiscal Year 2011 Statutory Audit of Compliance
                             With Legal Guidelines Prohibiting the Use of
                           Illegal Tax Protester and Similar Designations



Illegal Tax Protester References Have Been Removed From the
Internal Revenue Manual
In 9 of our 12 prior reviews, we identified
Illegal Tax Protester references in various
formats of the Internal Revenue Manual (IRM).
The official IRM is maintained on the
Electronic Publishing web site. However, it is
also found electronically on the IRM Online,
the Servicewide Electronic Research Program,
IRS.gov, and on CD-ROM, as well as in paper
format. The graphic to the right shows the
relationship between the Official IRM and the
various formats available to IRS employees.
During our Fiscal Year 2011 review, we again
verified that no Illegal Tax Protester references
existed in the IRM. By removing all Illegal
Tax Protester references from the IRM, the IRS
avoids any inappropriate implication to
taxpayers for whom these designations are
being used.

In Some Instances, Employees Used Illegal Tax Protester or Similar
Designations in Case Narratives
During the period October 2009 through September 2010, we found 38 instances, out of
approximately 3.6 million records and cases, in which 34 employees had labeled taxpayers as
“Tax Protester,” “Constitutionally Challenged,” or other similar designations in case narratives
on the following computer systems:
   •   Appeals Centralized Database System: A review of approximately 3.4 million
       opened/closed Appeals function narrative comment records identified ***1********
       *******************************1*************************************
       *******************************1*******************.
   •   Taxpayer Information File: A review of approximately 128,000 open records identified
       ******************1**************************************************
       *******************1************.




                                                                                           Page 4
                             Fiscal Year 2011 Statutory Audit of Compliance
                                With Legal Guidelines Prohibiting the Use of
                              Illegal Tax Protester and Similar Designations



We believe the 38 instances identified in the systems previously listed are prohibited by law.
Figure 1 contains the number of Illegal Tax Protester or similar designations identified in IRS
computer systems’ case narratives during our Fiscal Years 2010 and 2011 reviews.
    Figure 1: Illegal Tax Protester and Similar Designations in Case Narratives

                                    Fiscal Year 2010 Review                  Fiscal Year 2011 Review

   Computer System                        Protester     Similar                     Protester     Similar
                           Employees                                 Employees
                                         Designation   Designation                 Designation   Designation
                            Involved                                  Involved
                                            Used          Used                        Used          Used

  Appeals Centralized
                               19            **1*********1**               33            **1*********1****
   Database System

       Taxpayer
                               1              **1*********1**               1             **1********1****
    Information File
Source: Case narratives found on various IRS computer systems and the TIGTA report entitled Fiscal Year 2010
Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
Designations (Reference Number 2010-30-073, dated July 23, 2010).

We also identified 13 case narratives in which employees made references about the taxpayers’
actions (e.g., *********1*********************************************************
********************1**********************************************************.
We agree with the IRS that merely making references to a taxpayer’s actions does not constitute
a designation prohibited by statute. However, we are concerned these references could become,
or be considered, permanent labels that could subsequently stigmatize taxpayers in future
contacts with the IRS. We did not include any instances in which employees were only
documenting statements made by a taxpayer and/or his or her representative because quoting a
taxpayer’s self-designation as an Illegal Tax Protester is not prohibited by the law.
The statute states that “officers and employees of the Internal Revenue Service shall not
designate taxpayers as Illegal Tax Protesters (or any similar designation).” It further specifies
that existing designations in the Master File must be removed and any other designations made
before the effective date of the statute, such as those on paper records that have been archived,
must be disregarded. Senate Committee on Finance Report 105-174 (dated April 22, 1998),
related to the RRA 98 § 3707 provision, stated the Committee was concerned that taxpayers
might be stigmatized by a designation as an “Illegal Tax Protester.” Based upon the language of
the statute and the Senate Committee Report, we believe IRS officers and employees should not
label taxpayers as Illegal Tax Protesters or similar designations in any records, which include
paper and electronic case files. Officers and employees should not designate taxpayers as such
because a designation alone contains a negative connotation and appears to label the taxpayer.
IRS management disagrees that employee use of Illegal Tax Protester or similar designations in a
case narrative is a potential violation of the law. We continue to believe that the use of these

                                                                                                       Page 5
                              Fiscal Year 2011 Statutory Audit of Compliance
                                 With Legal Guidelines Prohibiting the Use of
                               Illegal Tax Protester and Similar Designations



designations in case narratives may stigmatize taxpayers and cause employee bias in future
contacts with these taxpayers. Electronic case narratives are available to other IRS employees
for future reference and may affect the opinions and actions of employees working the taxpayers’
cases.
In its response to our Fiscal Year 2003 report,3 the IRS disagreed with our determination that in
order to comply with this provision, IRS employees should not designate taxpayers as Illegal Tax
Protesters or similar designations in case histories. As a result, we elevated this disagreement to
the Assistant Secretary for Management and Chief Financial Officer of the Department of the
Treasury, but have not yet received a response. Even though IRS management continues to
disagree with our interpretation of the law, they have taken a conservative approach by
implementing a policy that prohibits employees from using Illegal Tax Protester or any similar
designation. In August 2007, IRS management issued a memorandum to all employees
reminding them of this policy. In Fiscal Year 2008, guidance in the form of Alerts and
memorandums were issued to employees, and portions of the IRM were updated to reflect the
prohibition on using Illegal Tax Protester or any similar designation. IRS management still
continues to reinforce its policy by issuing Alerts and ensuring that IRM updates retain
reminders to employees regarding the prohibition on the use of Illegal Tax Protester or similar
designations.

Alternative Methods That Avoid the Need for Illegal Tax Protester
Designations Have Been Established to Address Tax Compliance
Issues
IRS tax compliance operations have not been significantly affected by the prohibition against
using Illegal Tax Protester or similar designations because alternative programs exist to address
issues previously handled by the Illegal Tax Protester Program. These include:
    •   The Frivolous Return Program that handles taxpayers who file tax returns based on some
        type of frivolous argument that justifies payment of little or no income tax. This includes
        filing a tax return claiming no income because paying taxes is voluntary or claiming to be
        a citizen of a State but not a citizen of the United States.
    •   The Nonfiler Program that handles taxpayers who fail to file their required tax returns.
    •   The Potentially Dangerous Taxpayer/Caution Upon Contact Program that handles
        taxpayers who have assaulted and/or threatened IRS employees.
Each of these programs is set up to address various issues IRS employees may encounter when
dealing with taxpayers protesting the legality of paying their income taxes. Unlike the former

3
 Fiscal Year 2003 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of Illegal Tax
Protester and Similar Designations (Reference Number 2003-40-098, dated April 14, 2003).
                                                                                                           Page 6
                         Fiscal Year 2011 Statutory Audit of Compliance
                            With Legal Guidelines Prohibiting the Use of
                          Illegal Tax Protester and Similar Designations



Illegal Tax Protester Program, each program addresses a specific taxpayer behavior. In addition,
taxpayers are not assigned to these individual programs on a permanent basis, as was the case in
the Illegal Tax Protester Program.
None of our prior reviews have identified instances in which the Illegal Tax Protester indicator
was needed on a taxpayer’s account to either accelerate tax enforcement actions and/or alert IRS
employees to be cautious when dealing with the taxpayer. As a result, we believe that
prohibiting the use of the Illegal Tax Protester designation has had no negative impact on
collection or examination activities.




                                                                                          Page 7
                               Fiscal Year 2011 Statutory Audit of Compliance
                                  With Legal Guidelines Prohibiting the Use of
                                Illegal Tax Protester and Similar Designations



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the IRS complied with RRA 981
Section (§) 3707 and its own internal guidelines that prohibit IRS officers and employees from
referring to taxpayers as Illegal Tax Protesters or any similar designations. The TIGTA is
required to annually evaluate compliance with the prohibition against using Illegal Tax Protester
or any similar designations. Unless otherwise noted, our limited tests of the reliability of data
obtained from various IRS systems did not identify any errors. We tested the reliability of the
data by scanning the data received for blank, incomplete, illogical, or improper data. In addition,
we traced a judgmental sample for each data set to the source IRS files to ensure accuracy. To
accomplish the objective, we:
I.       Determined if the Illegal Tax Protester coding on the Master File2 was removed by
         reviewing all tax accounts coded for accelerated collection activity as of September 2010
         on the Business Master File and Individual Master File. We analyzed 1,220,355 Master
         File records that had been coded for accelerated collection activity.3
         We also matched our historic computer extract of approximately 57,000 taxpayers
         designated as Illegal Tax Protesters before the RRA 98 was enacted to our records that
         had been coded for accelerated collection activity to determine if any new common codes
         were being used to classify the taxpayers as Illegal Tax Protesters.
II.      Determined if employees were using Illegal Tax Protester or any similar designations
         within the Activity Code field on the Taxpayer Information File by securing a copy of the
         database and analyzing 127,761 open records with activity between October 2009 and
         September 2010.
III.     Determined if the IRS is using any Frivolous Return Program4 codes as replacements for
         Illegal Tax Protester designations by reviewing guidance provided for the Frivolous
         Return Program and interviewing its Program Coordinator.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix V for a glossary of terms.
3
  A Transaction Code 148 causes the accelerated issuance of a Taxpayer Delinquent Investigation or Taxpayer
Delinquent Account.
4
  The Frivolous Return Program handles taxpayers who file tax returns based on some type of frivolous argument
that justifies payment of little or no income tax. This would include filing a tax return claiming no income because
paying taxes is voluntary or claiming to be a citizen of a State but not a citizen of the United States.
                                                                                                             Page 8
                             Fiscal Year 2011 Statutory Audit of Compliance
                                With Legal Guidelines Prohibiting the Use of
                              Illegal Tax Protester and Similar Designations



IV.     Determined if there is any relationship between Illegal Tax Protester designations and
        Potentially Dangerous Taxpayer/Caution Upon Contact indicator use on the Master File
        by reviewing guidance provided for the Potentially Dangerous Taxpayer/Caution Upon
        Contact Program5 and interviewing its Program Coordinator.
V.      Determined if the IRS Nonfiler Program6 is in compliance with the provisions established
        by RRA 98 § 3707(b) by reviewing guidance provided for the Nonfiler Program and
        interviewing its Program Coordinators.
VI.     Determined if the IRM contained Illegal Tax Protester or any similar designations by
        performing key word searches on electronic versions found on the IRS Electronic
        Publishing web site, the IRM Online and on CD-ROM, the Servicewide Electronic
        Research Program, IRS.gov web site, and the IRS Chief Counsel Directives Manual. We
        performed our review tests between August and September 2010.
VII.    Determined if employees were using the Illegal Tax Protester or any similar designations
        within taxpayer case narratives on the Appeals Centralized Database System by securing
        a copy of the database as of September 2010 and analyzing 3,425,949 open/closed
        Appeals function narrative comment records with activity between October 2009 and
        September 2010.
VIII.   Discussed with TIGTA Counsel the potential for agreement with IRS Counsel regarding
        the use of Illegal Tax Protester or similar designations in electronic case narratives.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: controls that ensure the reliability of the
data used for our analyses, including input validation. During our review, we tested the validity
of the data used for our analyses against the source, but we did not perform any specific testing
of data input controls. However, it should be noted that data from these same systems were used
during prior audits of Illegal Tax Protestor designations and no significant data issues were
identified.




5
  The Potentially Dangerous Taxpayer/Caution Upon Contact Program handles taxpayers who have assaulted and/or
threatened IRS employees.
6
  The Nonfiler Program handles taxpayers who fail to file their required returns.
                                                                                                      Page 9
                        Fiscal Year 2011 Statutory Audit of Compliance
                           With Legal Guidelines Prohibiting the Use of
                         Illegal Tax Protester and Similar Designations



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Audit Director
Alan Lund, Audit Manager
David Hartman, Lead Auditor
Craig Pelletier, Senior Auditor
Stanley Pinkston, Senior Auditor
James Allen, Information Technology Specialist
Arlene Feskanich, Information Technology Specialist




                                                                                      Page 10
                        Fiscal Year 2011 Statutory Audit of Compliance
                           With Legal Guidelines Prohibiting the Use of
                         Illegal Tax Protester and Similar Designations



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
National Taxpayer Advocate TA
Chief Technology Officer OS:CTO
Director, Office of Research, Analysis, and Statistics RAS
Director, Communications and Liaison, National Taxpayer Advocate TA:CL
Director, Office of Servicewide Policy, Directives, and Electronic Research RAS:SPDER
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Chief, Performance, Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   GAO/TIGTA Liaison, Deputy Commissioner for Operations Support OS
   GAO/TIGTA Liaison, Deputy Commissioner for Services and Enforcement SE
   GAO/TIGTA Liaison, National Taxpayer Advocate TA
   GAO/TIGTA Liaison, Chief Technology Officer OS:CTO:SM:PO
   Chief, GAO/TIGTA/Implementation Branch SE:S:CLD:PSP:GTI
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                    Page 11
                                Fiscal Year 2011 Statutory Audit of Compliance
                                   With Legal Guidelines Prohibiting the Use of
                                 Illegal Tax Protester and Similar Designations



                                                                                  Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. While no recommendations were made in this
report, the TIGTA has made prior recommendations that continue to provide benefits. This
benefit will be incorporated into our Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Taxpayer Rights and Entitlements – Actual; 38 taxpayers potentially affected (see page 4).

Methodology Used to Measure the Reported Benefit:
We reviewed:
      •    From the Appeals Centralized Database System,1 approximately 3.4 million open/closed
           Appeals function narrative comment records with history action dates between
           October 2009 and September 2010 and identified ***************1****************
           **************1*******************************.
      •    From the Taxpayer Information File, approximately 128,000 open records with history
           action dates between October 2009 and September 2010 and identified ****1********
           ****************1**************************************.




1
    See Appendix V for a glossary of terms.
                                                                                           Page 12
                       Fiscal Year 2011 Statutory Audit of Compliance
                          With Legal Guidelines Prohibiting the Use of
                        Illegal Tax Protester and Similar Designations



                                                                             Appendix V

                           Glossary of Terms

Appeals Centralized       Appeals function database system used by Appeals Officers,
Database System           Settlement Officers, managers, and technical analysts to track
                          case receipts, record case time, document case actions, and
                          monitor the progress of the Appeals function workload.

Business Master File      The IRS database that consists of Federal tax-related
                          transactions and accounts for businesses. These include
                          employment taxes, income taxes on businesses, and excise
                          taxes.

Campus                    The data processing arm of the IRS. The campuses process
                          paper and electronic submissions, correct errors, and forward
                          data to the Computing Centers for analysis and posting to
                          taxpayer accounts.

Individual Master File    The IRS database that maintains transactions or records of
                          individual tax accounts.

Internal Revenue          A manual containing the IRS’s internal guidelines.
Manual

Master File               The IRS database that stores various types of taxpayer
                          account information. This database includes individual,
                          business, and employee plans and exempt organizations data.

Servicewide Electronic    An electronic researching tool containing many former paper
Research Program          research applications (e.g., publications, the Internal Revenue
                          Manual, and the Probe and Response Guide).

Taxpayer Delinquent       A computer-generated printout indicating that the taxpayer’s
Account                   account has reached a delinquent status.

Taxpayer Delinquent       A computer-generated printout indicating that a taxpayer is
Investigation             delinquent filing a return.



                                                                                       Page 13
                   Fiscal Year 2011 Statutory Audit of Compliance
                      With Legal Guidelines Prohibiting the Use of
                    Illegal Tax Protester and Similar Designations



Taxpayer                A nine-digit number assigned to taxpayers for identification
Identification Number   purposes. Depending upon the nature of the taxpayer, the
                        Taxpayer Identification Number is an Employer Identification
                        Number, a Social Security Number, or an Individual Taxpayer
                        Identification Number.

Taxpayer Information    A file containing entity and tax data processed at a given
File                    campus for all Taxpayer Identification Numbers.




                                                                                     Page 14
